Genesis Credit® Account
Pricing Summary

F03-Y001-2

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

24.99%

How to Avoid Paying Interest
on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by the
due date each month.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Penalty Fees
• Late Payment Fee

Up to $39

• Returned Payment Fee

Up to $39

How We Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See
the “How Interest Charges are Determined” section of the Genesis Credit Account Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in “Your
Billing Rights - Keep This Notice for Future Use” section of the Genesis Credit Account Agreement.

Genesis Credit® Account Agreement
Dear Accountholder:
This Agreement, as defined below, is your contract for your Account and:
• Covers the terms that govern the use of your Account;
• Outlines both your responsibilities and ours;
• Includes certain disclosures required by the Federal Truth in Lending
Act;
• Includes certain disclosures required by the Federal Military Lending
Act;
• Includes an Arbitration of Disputes Provision that will substantially
affect your rights unless you reject it; and
• Contains important information about your Account.
We encourage you to read the Agreement and keep it for your records.
Please feel free to call us with any questions you may have. We look
forward to serving you.
ACCOUNT AGREEMENT
This Agreement contains the terms that govern the use of your Genesis Credit Account and
outlines both your responsibilities and ours. Please read it in its entirety and keep it for your
reference. In addition, any written application, acceptance certificate or other request you signed
or otherwise submitted for this Account (the “Application”), your Card and the Card Carrier
that we send with your Card, and your signature (including any electronic or digital signature)
on any Application, sales slip or other evidence of indebtedness on your Account, are hereby
incorporated into and made a part of this Agreement. This Agreement begins on the earlier of
(i) the date you sign or otherwise submit an Application that is approved by us, or (ii) the first
date that we extend credit to you on your Account, as evidenced by a signed sales slip or other
evidence of indebtedness.
DEFINITIONS
To simplify this Agreement for you, the definitions listed below will apply throughout, both in this
Agreement and in your monthly Statements. In addition, the words you, your, and yours refer to
the Accountholder(s) who holds the Card and is responsible for the Account, each of whom is
individually and jointly obligated under this Agreement. The words we, us, and our refer to The
Bank of Missouri.
Account: The Account for which you were issued a Card imprinted with your Account number and
that is subject to all of the terms and conditions of this Agreement.
Accountholder: The person to whom a Card is issued, or who has agreed to pay obligations
arising from the use of a Card or the Account.
Billing Cycle: The time interval covered by a monthly Statement. Each Billing Cycle is approximately
30 days in length; however, the specific period of time is described on each monthly Statement.
Your Account will have a Billing Cycle even if a Statement is not required.
Card: Any Genesis Credit card issued by us that you may use to make Purchases of goods or
services from Retailer. Use of your Account number to make Purchases of goods or services from
Retailer will be considered use of the Account.
Card Carrier: The carrier that contains your Card.
Closing Date: The date of the last day of a Billing Cycle.
Covered Borrower: Certain members of the Armed Forces and their dependents who are protected
by the Military Lending Act.
Credit: The credit extension you receive under this Agreement.
Credit Limit: The maximum amount of credit available to you on your Account. Your Credit Limit
will be disclosed to you on the monthly Statements.
New Balance: The total outstanding Account balance on the Closing Date specified in your
monthly statement.
Previous Balance: The balance of your Account at the beginning of a Billing Cycle. This will be the
same as the “New Balance” shown on the previous monthly statement.
Purchase: An extension of Credit to your Account for the purpose of purchasing goods or services
from Retailer.
Regular Balance: The total outstanding balance of Purchases and interest charges, excluding
amounts included in the Miscellaneous/Fees Balance.
Miscellaneous/Fees Balance: The total outstanding balance of all amounts other than Purchases
and interest charges on Purchases.
Retailer: Participating Aspen Dental locations located in the U.S.
Statement: A monthly document we provide to you showing Account information including,
among other things, Purchase transactions, credits and debits, payments, fees, and interest
charges made to your Account during a Billing Cycle.

F03-X868-0

form may not be credited as of the day we receive them. If we accept a payment at a place other
than the address in the immediately preceding paragraph, we may delay the crediting of the
payment for up to five (5) days. This may cause you to incur Late Payment Fees and additional
interest charges, and may result in your Account being declared in default.
We do not accept cash payments through the mail. You may not make payments with funds from
your Account or any other credit account issued by us.
When you provide a check as payment, you authorize us either to use information from your
check to make a one-time electronic fund transfer from your account or to process the payment
as a check transaction. When we use information from your check to make an electronic fund
transfer, funds may be withdrawn from your account as soon as the same day we receive your
payment and you will not receive your check back from your financial institution.
At any time, you may pay part or all of the full amount you owe without incurring any additional
charge for prepayment. The amount of any payment that exceeds your total New Balance will be
applied as a credit to your Account, and any remaining credit balance will be refunded as required
by law.
Credit availability may be delayed at our sole discretion to ensure payment in good funds. Your
available credit on your Credit Limit may not reflect your payments for up to 14 days.
Application of Payments
For each Billing Cycle, we will allocate payment amounts up to your monthly minimum payment
to charges and principal due (including new transactions) in any way we determine. We will
generally apply payment amounts up to your Monthly Minimum Payment in a manner most
favorable or convenient for us.
For each Billing Cycle, to the extent your payments exceed your monthly minimum payment, we
will apply these excess amounts in the order required by applicable law.
HOW INTEREST CHARGES ARE DETERMINED
Your Interest Rate
We use a daily periodic rate to calculate the interest on your Account. The daily periodic rate is
the applicable APR multiplied by 1/365. The daily periodic rate for your account is 0.0684% and
the applicable APR is 24.99%.
When We Charge Interest
We charge interest on your Regular Balance from the date you make the purchase until you pay
the Regular Balance in full.
However, we do not assess interest charges in the following circumstances:
1. If you paid the New Balance at the beginning of your previous Billing Cycle by the Payment
Due Date during the previous Billing Cycle, or if that New Balance was $0 or a credit
balance, then:
a. if you pay the New Balance on your current Statement in full by the Payment Due Date
in your current Billing Cycle, we will not assess interest charges during your current
Billing Cycle; and
b. if you make a payment that is less than the New Balance by the Payment Due Date in
your current Billing Cycle, we will credit that payment as of the first day in your current
Billing Cycle.
2. If you had a New Balance at the beginning of your previous Billing Cycle and you did not pay
that New Balance by the Payment Due Date during that previous Billing Cycle, then we will
not assess interest charges during the current Billing Cycle if you pay the New Balance at
the beginning of your current Billing Cycle by the Payment Due Date in your current Billing
Cycle.
How We Calculate Interest
We calculate interest separately for each balance segment on your Account. We do this by
applying the daily periodic rate to your average daily balance (including new Purchases), and
then multiplying the resulting number by the number of days in the Billing Cycle for each balance
segment. An average daily balance is calculated for the following balance segments as applicable:
Regular Balance segments and the Miscellaneous/Fees Balance segment.
We calculate interest for each balance segment as follows:
1. For each day, we take the beginning balance of each balance segment in the billing cycle,
including any unpaid interest charges, add any new purchases and debits, and then subtract
the applicable portion of any payments and credits. This gives us the daily balance. Late
Payment Fees, Returned Payment Fees, and Documentation Fees are not included in the
daily balance.
2. Then, we add all the daily balances for the billing cycle together and divide the total by the
number of days in the billing cycle. This gives us the average daily balance.
3. Next, we multiply the daily periodic rate by the average daily balance.
4. Finally, we take the resulting number from #3 and multiply it by the number of days in
the billing cycle. This gives us the interest charge for each balance segment for the billing
cycle.

USING YOUR ACCOUNT

OTHER FEES

Purchases
You may use your Account to purchase goods and services from Retailer. You promise to pay us
and are liable for all amounts resulting from the authorized use of your Card, Account Number
or Account, plus any applicable interest charges and other applicable charges or fees, payable
in U.S. dollars.

In addition to interest charges, other fees may be applied to your Account, as set forth below.

Your Credit Limit
You may not use your Account in any way that would cause you to go over your Credit Limit. We
may refuse to authorize or accept any transaction on your Account if (1) that transaction would
cause you to exceed your Credit Limit or (2) your Account is delinquent. We may temporarily
agree to allow you to exceed your Credit Limit. If we do so, in that case, you must repay the
excess amount according to the terms of this Agreement. Any transactions honored in excess of
your Credit Limit will not result in an increase of your Credit Limit.
MAKING PAYMENTS
Monthly Statements
We will send a Statement at the end of each monthly Billing Cycle if there is a debit or credit
balance on your account of $1 or more, a balance on which an interest charge has been imposed
or as otherwise required by applicable law. You agree to pay us, or any party to whom we may
transfer and assign your Account or the amounts owing under your Account, in U.S. dollars
according to all terms and conditions of this Agreement. Payments made by a check, money
order or other negotiable instrument must be in a form acceptable to us and drawn on a U.S.
financial institution.
Monthly Minimum Payment
Your initial Monthly Minimum Payment will be based on the balance on the last day of your first
Billing Cycle in which you make a Purchase, using the table below. This balance will exclude any
transactions, payments, or adjustments that post on the last day of the Billing Cycle. Your Monthly
Minimum Payment will not change unless you make additional purchases in a later Billing Cycle.
If you make an additional purchase in a later Billing Cycle, the Monthly Minimum Payment may
increase based on your New Balance at the end of that Billing Cycle, using the table below. Any
increase will take effect with your Monthly Minimum Payment due in the second subsequent
Billing Cycle.
If the amount of your
balance is:

Then your monthly minimum
payment will be:

Up to $999.99

$45

Between $1,000 and $1,999.99

$90

Between $2,000 and $2,999.99

$145

$3,000 or more

$225

Your Monthly Minimum Payment due also will include the greater of (i) any past due amount, or
(ii) any amount by which the New Balance exceeded your Credit Limit. Your Monthly Minimum
Payment due will never exceed your New Balance.
If you elect not to pay your New Balance in full, you must pay at least the Monthly Minimum
Payment due by the payment due date shown on your monthly statement, which is at least 25
days after the Closing Date of the Billing Cycle.
If you make a payment in excess of the Monthly Minimum Payment due for any month, it will
not reduce your Monthly Minimum Payment due in subsequent months, but it may result in your
paying off your balance more quickly.
Payments should be mailed with the payment coupon and in the envelope provided and following
the other instructions on the Statement to Genesis FS Card Services, P.O. Box 84049, Columbus,
Georgia 31908. Any payment received in that form and at that address on or before 5:00 P.M.,
Eastern Time, on a normal banking day will be credited to your Account that day. If your payment
is received in that form and at that address after 5:00 P.M., Eastern Time, on a normal banking day,
or any time on a non-banking day, we will credit it to your Account the next banking day. However,
if your Payment Due Date occurs on a non-banking day, any payment received the next day which
conforms to the above requirements will not be treated as late. Please allow at least seven (7)
business days for postal delivery. Payments received by us at any other location or in any other

Late Payment Fee
If we do not receive your Monthly Minimum Payment Due by the Closing Date of the Billing Cycle
in which the Payment Due Date occurs and the amount past due on your Account is more than
$9.99, we will charge a Late Payment Fee to your Account. The Late Payment Fee is $28 if you
were not charged a Late Payment Fee during any of the prior six Billing Cycles. Otherwise, the
Late Payment Fee is $39. The Late Payment Fee will never exceed the amount of your most
recently required Monthly Minimum Payment.
Returned Payment Fee
If any payment on your Account is returned to us unpaid for any reason, we will charge a Returned
Payment Fee to your Account. The Returned Payment Fee is $28 if you were not charged a
Returned Payment Fee during any of the prior six Billing Cycles. Otherwise, the Returned Payment
Fee is $39. The Returned Payment Fee will never exceed the amount of your most recently
required Monthly Minimum Payment.
Documentation Fee
You may request a copy of a Statement previously sent to you for a Documentation Fee of $3 per
Statement, which will be charged to your Account. Copies of sales tickets or other items posted
to your Account may be obtained for a Documentation Fee of $10 per sales ticket or other item,
which will be applied to your Account. Notwithstanding the foregoing, we will not impose any fee
in connection with a good faith assertion of a billing error or other exercise of your Billing Rights
(see below under “Your Billing Rights - Keep This Notice for Future Use”).
MILITARY LENDING ACT
The Military Lending Act provides protections for Covered Borrowers. The provisions of this
section apply to Covered Borrowers. If you would like more information about whether you are
a Covered Borrower, you may contact us at 1-866-502-6439.
Statement of MAPR
Federal law provides important protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of consumer credit to a member of
the Armed Forces and his or her dependent may not exceed an Annual Percentage Rate of 36%.
This rate must include, as applicable to the credit transaction or account: (1) the costs associated
with credit insurance premiums; (2) fees for ancillary products sold in connection with the credit
transaction; (3) any application fee charged (other than certain application fees for specified credit
transactions or accounts); and (4) any participation fee charged (other than certain participation
fees for a credit card account).
Oral Disclosures
In order to hear important disclosures and payment information about this Agreement, you may
call 1-866-875-5929.
Applicability of Arbitration of Disputes Provision
The Arbitration of Disputes Provision set forth in this Agreement does not apply to Covered
Borrowers.
LOST CARDS AND UNAUTHORIZED USE
You will take reasonable steps to prevent the unauthorized use of your Card and Account. If your
Card is lost or stolen or if someone else might be using it without your permission, you must tell
us at once. You may tell us by calling the telephone number on the back of your Card or on your
Statement or by writing us at the address on your Statement. You will not be responsible for the
charges made to your Account that are found by us to be unauthorized. If we reimburse your
Account for unauthorized charges made using your Card or Account, you will help us investigate,
pursue, and get reimbursement from the wrongdoer. Your help includes giving us documents that
we ask for and are acceptable to us.
COMMUNICATIONS
Telephone Monitoring and Recording. You consent and agree that, except as restricted by
applicable law, we may monitor and/or record telephone calls regarding your Account, suppress
caller identification services and use an automated dialing and announcing system or pre-recorded
. . . CONTINUED ON REVERSE

JOB SPECS:
Flat Size:
8.25” x 18.5”
Finished Size:
8.25” x 3.75”
Colors:
Front: Black
Back: Black
Bleed: No
Note: None

messages for account management purposes, including calls made for account collection
purposes. If you provide us with a cellular phone number either as part of your application, or at
any time thereafter, including, without limitation, after your Account is in a default status, you are
expressly consenting that we and our agents may (1) contact you at that number including by text
message, and (2) use automated telephone dialing systems to initiate such contacts and/or leave
recorded messages. For Text Messages: Message and data rates may apply.
In accordance with applicable law, we or our representatives may contact you from time to time
regarding the Account, or to ask for additional information about you or your experience with us.
You agree that such contacts are not unsolicited and may include contacts at your home or place
of employment, during weekdays, weekends or holidays, on your mobile telephone, voicemail or
answering machine, or by email, fax, recorded message, text message or personal visit.
Email. If you provide us at any time with an email contact for your Account, you agree we may
use that email address to contact you about your Account and may send you information about
products and services related to your Account. If, at any time, you would like to limit the types of
communications you receive from us by email, please contact us at Genesis FS Card Services,
P.O. Box 4477, Beaverton, OR 97076, 1-866-946-9575, or, if you receive an email from us, you
can select the “unsubscribe” link that is located in every email.
OUR RIGHTS AND HOW THEY AFFECT YOU
Retailer Refunds for Goods or Services. Refunds for goods and services are governed by
Retailer. Any refunds for goods or services purchased from Retailer through an extension of Credit
on your Account will be issued as a credit adjustment to your Account. When we are notified
by Retailer of any refund amount, we will subtract an amount equal to the refund amount from
your Account. However, the Monthly Minimum Payment amount based on your balance will not
decrease as a result of any refund amount. If a refund amount results in a credit balance on your
Account, we will refund your credit balance.
No Waiver of Rights; Disputed Amounts
We can accept late or partial payments without losing any of our rights under this Agreement.
You agree not to send us partial payments marked “paid in full,” “without recourse,” or
similar language. If you send such a payment, we may accept it without losing any of our
rights under this Agreement. All written communications concerning disputed amounts,
including any check or other payment instrument that indicated that the payment constitutes
“payment in full” of the amount owed or that is tendered with other conditions or limitations
or as full satisfaction of a disputed amount, must be mailed or delivered to Genesis FS Card
Services, P.O. Box 4499, Beaverton, Oregon 97076.
Credit Reports and Information
You authorize us to make or have made any credit, employment, or other investigative inquiries
we deem appropriate to extend you credit or collect amounts owed to us on your Account. We
(including any assignee of the Account or amounts owing under the Account) may also obtain
information about you from credit reporting agencies or others at any time and use it for the
purposes of monitoring your credit performance, managing your Account and considering you
for new offers and programs.
Notice of Inaccurate Information
If you believe that we have information about you that is inaccurate or that we have reported or
may report to a credit reporting agency information about you that is inaccurate, please notify
us of the specific information that you believe is inaccurate by writing to us at Genesis FS Card
Services, P.O. Box 4499, Beaverton, OR 97076.
Default and Collection
Unless prohibited by applicable law, your Account is considered to be in default if (1) you fail to
make the required Monthly Minimum Payment on or before the Payment Due Date, including if
your payment is returned or cannot be processed and you do not correct that failure within 31
days, (2) you try to exceed or do exceed your Credit Limit without permission and do not bring
your Account back under your Credit Limit within 31 days, (3) you become subject to bankruptcy
or insolvency proceedings, (4) you become subject to attachment or garnishment proceedings,
(5) you give us any false information or signature, (6) you die, or (7) you fail to comply with any
portion of this Agreement. Our accepting a late or partial payment does not waive default. Default
on this Account will constitute default on all accounts you hold with us.
Subject to any notice of default and right to cure or other restrictions of applicable law, if you are
in default, we may declare the entire balance due immediately. You agree to pay our reasonable
costs and attorneys’ fees and expenses related to the collection of your Account, and retrieving
your Card, to the extent permitted by applicable laws.
Change of Terms
Subject to the limitations of applicable law, we may, at any time, change or remove any of
the terms and conditions of, or add new terms or conditions to, this Agreement. If required
by applicable law, we will mail written notice of such a change to you in the manner required
by such law. As of the effective date, the changed or new terms will apply to new Purchases
and to the outstanding balance of your Account, subject to the limitations of applicable law.
Delay in Enforcement
We can delay enforcing our rights under this Agreement without losing them.
OTHER PROVISIONS
Ownership and Use of Your Card
As the Accountholder you are liable for all credit obtained under your Account. If you authorize
another person to use your Card or Account Number, you are liable for any Credit obtained on
your Account. Misuse of your Card or Account Number by an authorized person will not be
considered unauthorized use. See “Lost Cards and Unauthorized Use” above. Upon demand,
you must immediately return any Card we supply to you or destroy the Card by cutting it in half.
Transactions
You will retain for Statement verification your copy of each Purchase slip or other transaction
receipt from Retailer.
Transfer of Your Account
You may not transfer your Account to any other person. We may assign your Account or amounts
owing under your Account to any other person at any time and the assignee will take our place
under the Agreement with respect to all agreements and interests transferred. You must pay the
assignee and otherwise perform your obligations under the assigned agreements and interests.
Closing or Suspending Your Account
Either you or we may terminate or suspend your Credit privileges at any time, with or without
cause and with or without advance notice, but you will remain liable for all charges until they are
paid in full. You may cancel your Account at any time by writing to us at Genesis FS Card Services,
P.O. Box 4477, Beaverton, OR 97076.
If you do not use your Account to make a purchase from the Retailer within four months from
the opening of your Account, we reserve the right to terminate your Credit privileges and cancel
your Account.
Additional Benefits and Services
From time to time, we may offer you benefits and services with your Account. These benefits
and services may be provided by us or third parties. Unless expressly made a part of this
Agreement, and except as provided in the Arbitration of Disputes section below, any such benefits
and services are not a part of this Agreement, and are subject only to the terms and conditions
outlined in the benefits or services brochure and other official documents provided to you with
respect to the benefits and services. We may adjust, add, or delete benefits or services at any time
in accordance with the brochures or documents you receive. Except as required by applicable law,
we are not liable for benefits or services provided by third parties or the actions or omissions of
those third parties.
Honoring Your Card
We are not liable for the failure or refusal of Retailer to accept your Card or Account Number.
Although you may have Credit available, we will not be liable for the failure to authorize Credit
due to operational difficulties or mistakes. Transactions made above a certain dollar amount may
require that we authorize the transaction before the transaction is approved. In addition, we may
limit the number and amount of daily transactions approved for security reasons.
Change of Address, Employment and Telephone
We will send all written notices and Statements to your address as it appears on our records. To
avoid delays and missed payments that could affect your credit standing, you agree to promptly
advise us if you change your mailing address, place of employment, or telephone number.
Severability
In the event that any provision of this Agreement is determined to be invalid or unenforceable for
any reason, the remaining provisions will remain in effect.
Entire Agreement; Interpretation
This Agreement (including other documents incorporated herein by reference) constitutes the final
expression of the credit agreement between you and us relating to your Account. The headings
used in this Agreement are for the convenience of reference only and are not intended to define or
describe the scope or intent of any portion of the Agreement.
Governing Law
Except as expressly set forth in the Arbitration Provision of this Agreement, this Agreement
and the interpretation and enforcement thereof (including but not limited to the exportation
of interest rates) will be governed by Federal law that applies to us and to the extent not
preempted by Federal law, the laws of the State of Missouri, including Missouri Revised
Statutes (Chapter 408 Legal Tender and Interest) Section 408.145.

Arbitration of Disputes
PLEASE READ THIS ARBITRATION OF DISPUTES PROVISION CAREFULLY. UNLESS YOU SEND
US THE REJECTION NOTICE DESCRIBED BELOW, THIS PROVISION WILL APPLY TO YOUR
ACCOUNT, AND MOST DISPUTES BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL
ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A JURY WILL RESOLVE ANY
SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A CLASS ACTION OR SIMILAR
PROCEEDING; (3) LESS INFORMATION WILL BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE
LIMITED. THIS ARBITRATION OF DISPUTES PROVISION DOES NOT APPLY TO YOU IF, AS OF THE
DATE OF THIS AGREEMENT, YOU ARE A MEMBER OF THE ARMED FORCES OR A DEPENDENT
OF SUCH MEMBER ENTITLED TO PROTECTION UNDER THE FEDERAL MILITARY LENDING ACT.
PLEASE SEE THE SECTION OF THIS AGREEMENT LABELED “MILITARY LENDING ACT.” IF YOU
WOULD LIKE MORE INFORMATION ABOUT WHETHER YOU ARE ENTITLED TO PROTECTION
UNDER THE FEDERAL MILITARY LENDING ACT, YOU MAY CONTACT US AT 1-866-502-6439.
This provision replaces any existing arbitration provision with us and will stay in force no matter
what happens to your Account, including the closing of your Account.
Except as expressly provided below, you and we must arbitrate individually, by binding arbitration
under the Federal Arbitration Act (“FAA”), any dispute or claim between you, on the one hand, and
us, our affiliates and agents, on the other hand, if the dispute or claim arises out of or is related
to (a) this Agreement (including without limitation, any dispute over the validity of this Agreement
to arbitrate disputes or of this entire Agreement), or (b) your Account, or (c) any relationship
resulting from this Agreement, or (d) any insurance or other service related to your Account, or
(e) any other agreement related to your Account (including prior agreements) or any such service,
or (f) breach of this Agreement or any other such agreement, whether based on statute, contract,
tort or any other legal theory (any “Claim”). However, we will not require you to arbitrate any
individual Claims in small claims court or your state’s equivalent court, so long as it remains an
individual case in that court.
YOU AGREE NOT TO PARTICIPATE IN A CLASS, REPRESENTATIVE OR PRIVATE ATTORNEY
GENERAL ACTION AGAINST US IN COURT OR ARBITRATION. ALSO, YOU MAY NOT BRING CLAIMS
AGAINST US ON BEHALF OF ANY ACCOUNTHOLDER OR “UNRELATED ACCOUNTHOLDER AND
YOU AGREE THAT NO UNRELATED ACCOUNTHOLDER MAY BRING ANY CLAIMS AGAINST
US ON YOUR BEHALF. CLAIMS BY YOU AND AN UNRELATED ACCOUNTHOLDER MAY NOT
BE JOINED IN A SINGLE ARBITRATION. THE ARBITRATOR WILL NOT HAVE THE POWER TO
CONSIDER SUCH CLASS, REPRESENTATIVE OR PRIVATE ATTORNEY GENERAL ACTIONS OR
ANY SUCH CLAIMS YOU BRING ON BEHALF OF AN UNRELATED ACCOUNTHOLDER.
Judgment on the arbitration award may be entered in any court having jurisdiction. Any dispute
regarding whether a particular controversy is subject to arbitration, or the applicability or
enforceability of the foregoing paragraph, will be decided by a court and not by an arbitrator.
If you or we elect to arbitrate a claim, the electing party must notify the other party in writing. The
notice can be given after the beginning of a lawsuit and can be given in papers filed in the lawsuit.
Otherwise, your notice must be sent to Genesis FS Card Services, Attn: Arbitration Demand, P.O.
Box 4477, Beaverton, Oregon 97076, and our notice must be sent to the most recent address
for you in our files. The arbitration will be administered by the American Arbitration Association
(the “AAA”) under its rules in effect at the time an arbitration is commenced that are applicable
to the resolution of consumer disputes (the “Arbitration Rules”). We will tell you how to contact
the AAA and how to get a copy of the Arbitration Rules without cost if you ask us in writing to do
so. The Arbitration Rules permit you to request deferral or reduction of the administrative fees of
arbitration if paying them would cause you a hardship. In addition, if you ask us in writing, we will
consider your request to pay any or all of your costs of arbitration.
Each arbitrator shall be a licensed attorney who has been engaged in the private practice of law
continuously during the ten years immediately preceding the arbitration or a retired judge of a
court of general or appellate jurisdiction. The arbitration award shall award only such relief as a
court of competent jurisdiction could properly award under applicable law, including attorneys’
fees if allowed by applicable law or agreement. All statutes of limitation, defenses, and attorneyclient and other privileges that would apply in a court proceeding will apply in the arbitration.
If any provision of this Section regarding arbitration of disputes shall be deemed to be
unenforceable, the remainder of this Section shall be given full force and effect. However, if
the provision precluding class, representative or private attorney general Claims in arbitration
is deemed unenforceable, then this entire Arbitration Agreement shall be void and of no force
and effect.
You may reject this provision, in which case only a court may be used to resolve any dispute
or claim. Rejection will not affect any other aspect of the Account Agreement. To reject this
Provision, you must send us a notice within 60 days after you open your Account or we first
provide you with a right to reject this Provision. This notice must include your name, address and
Account number and be mailed to Genesis FS Card Services, Attn: Arbitration Provision, P.O. Box
4477, Beaverton, Oregon 97076. This is the only way you can reject this Provision.
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your Statement, please write to us at: Genesis FS Card Services,
P.O. Box 4499, Beaverton, OR 97076-4499.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe
is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your Statement.
• At least three (3) business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors, and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will
also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your Statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder
of your balance.
• We can apply any unpaid amount against your Credit Limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along
with applicable interest and fees. We will then send you a Statement of the amount you owe
and the date payment is due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know when the matter has
been settled between us. If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question, even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the Purchase. To use this right, all of the following must
be true:
1. The Purchase must have been made in your home state or within 100 miles of your current
mailing address, and the Purchase price must have been more than $50. (Note: Neither of
these are necessary if your Purchase was based on an advertisement we mailed to you, or
if we own the company that sold you the goods or services.)
2. You must have used your credit card for the Purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not
qualify.
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the Purchase, contact us in
writing at Genesis FS Card Services, P.O. Box 4499, Beaverton, OR 97076-4499.
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an amount
and you do not pay, we may report you as delinquent.
Your Genesis Credit Account is issued by:
The Bank of Missouri
434 State Hwy Y
St. Robert, MO 65584
F03-X868-0

